No. 20-549
In the

Supreme Court of the United States

JOHN FARROW, et al.,
Petitioners,
v.
CONTRA COSTA COUNTY, CALIFORNIA,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS
Christopher A lan Martin
Counsel of Record
Martin Law Offices
607 Hearst Avenue
Berkeley, CA 94610
(510) 206-2142
m305@icloud.com
Attorney for Petitioners
January 15, 2021
301198

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
REPLY BRIEF FOR PETITIONERS . . . . . . . . . . . . . . 1
(1) Petitioners Argued the Heck Issue in Their
Opening Brief. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
(2) Heck does not Bar this Action. . . . . . . . . . . . . . . . 3
(3) Respondent Raises Another Compelling
Reason for Granting Certiorari. . . . . . . . . . . . . . . 4
(4) Collateral Estoppel Was Not Addressed Below. 6
(5) Due Process and Equal Protection Violations
Occur at Arraignment if Counsel is Not
Present. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Due Process was Violated.  . . . . . . . . . . . . . . 6
B. Equal Protection was Violated.  . . . . . . . . . . 7
(6)

This Case is not Moot.  . . . . . . . . . . . . . . . . . . . . . 8

(7) There is a Sufficient Record to Determine that
Respondent’s Policy was Constitutionally
Invalid on its Face. . . . . . . . . . . . . . . . . . . . . . . . . . 9

ii
Table of Contents
Page
(8) The Absence of Judicial Defendants and a
Certified Class Clarifies the Issues.  . . . . . . . . . 10
(9) The Procedural Issues in this Case are
Anything but Mundane.  . . . . . . . . . . . . . . . . . . . 11
(10) The Issues in this Case are not of “Relative
Unimportance.” . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Already, LLC v. Nike, Inc.,
568 U.S. 85 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Ayala v. Wong,
756 F.3d 656 (9th Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 5
Coleman v. Alabama,
399 U.S. 1 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Cutter v. Wilkinson,
544 U.S. 709 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Douglas v. California,
372 U.S. 353 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Gideon v. Wainwright,
372 U.S. 335 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Hamilton v. Alabama,
368 U.S. 352 (1961)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Heck v. Humphrey,
512 U.S. 477, (1994) . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4
Hurst v. Florida,
577 U.S. 92 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iv
Cited Authorities
Page
Kolstad v. American Dental Ass’n,
527 U.S. 526 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Lane v. Brown,
372 U.S. 477 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Mathews v. Eldridge,
424 U.S. 319 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
McNeal v. Adams,
623 F.3d 1283 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 5
People v. Cox,
193 Cal. App. 3d 1437 (1987)  . . . . . . . . . . . . . . . . . . . . 4
Ross v. Moffitt,
417 U.S. 600 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
Rothgery v. Gillespie County, Tex.,
554 U.S. 191 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
United States v. Cronic,
466 U.S. 648 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6
United States v. Morrison,
449 U.S. 361 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Owen,
407 F.3d 222 (4th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 5

v
Cited Authorities
Page
United States v. Roy,
855 F.3d 1133 (11th Cir. 2017)  . . . . . . . . . . . . . . . . . . . 5
United States v. Wade,
388 U.S. 218 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
White v. Maryland,
373 U.S. 59 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Wisconsin v. Constantineau,
400 U.S. 433 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statutes and Other Authorities
U.S. Const., Amend. VI . . . . . . . . . . . . . . . . . . . . . . 5, 6, 11
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
REPLY BRIEF FOR PETITIONERS
Respondent attempts to avoid a grant of certiorari
by trivializing the importance of the issues and by
retreating to the notion that this case is not the proper
vehicle for addressing these profound constitutional issues,
which affect the entire nation. It reframes the questions
presented, shifting the focus from the constitutional issues
to specious assertions in support of its only real argument,
which is that this case is not the appropriate vehicle
because it is “not clean” and is circumscribed by statespecific facts. The transparent falsity of Respondent’s
claims is exposed below, revealing that the simplicity of
this case makes it the ideal vehicle for addressing the
constitutional questions at issue.
Petitioners identified widening splits among the
federal circuit courts, federal district courts and the
highest courts of eight states pertaining to each of the
doctrines related to when the state must provide counsel to
indigent detainees. Petitioners also provided a statement
from Senator Grassley as well as many law review articles
explaining why uncounseled pretrial detention presents
an urgent matter of national importance. They further
explained that the lower courts departed from the normal
course of judicial proceedings in several ways, including
announcement of new standards of review after the matter
had been submitted, standards which sharply deviated
from the standard set forth by Judge Fletcher in the first
Ninth Circuit opinion in this case. They also demonstrated
that the second Ninth Circuit opinion sanctioned new
constitutional standards answering the question left open
by this Court in Rothgery v. Gillespie County, Tex., 554
U.S. 191 (2008), which are dangerous and conspicuously
erroneous.

2
Respondent’s Brief in Opposition does not mention
the standards of review at all. It does not refute that the
case was evaluated based upon new standards that were
announced after the matter had been submitted. It does
not dispute that there are widening splits among the
various federal and state courts on all of the pertinent
legal doctrines; it does not dispute that ambiguities in
the legal framework enable some jurisdictions to detain
citizens for more than a year without legal representation;
it does not dispute that unnecessary detention exacts a
heavy toll on detainees, their families, their communities,
and the Judiciary. Rather, through its silence, Respondent
implicitly concedes these issues; and it explicitly states
that its policy of automatically denying counsel to all
indigent detainees for a period of one to two weeks was
based exclusively upon its own unexplained failure to
adequately fund its public defender office. Opp. 7.
(1) Petitioners Argued the Heck Issue in Their Opening
Brief.
The Ninth Circuit determined that Petitioners
waived the issue of whether the Heck doctrine precluded
a civil remedy for denial of counsel at the critical stage
of arraignment because they did not argue it in their
Opening Brief. It makes perfect sense for appellate courts
to refuse to address issues that have not been clearly
argued in opening briefs. The contrary position would
waste precious judicial resources and prejudice appellees
who would rightfully gloss over buried issues in opening
briefs.
This doctrine, however, is not meant to serve as a
device for avoiding potentially dispositive issues because

3
they do not fall under their own subheadings. The County
stated on page thirty-three of its Answering Brief in the
Ninth Circuit that, “Farrow and Wade contend here that
their “critical stage” claim is subject to the harmless error
doctrine and, thus, not barred by Heck. AOB at 8-11.”1
It then spent 5 pages of its Answering Brief rebutting
this argument, which Petitioners refuted in their Brief
in Response. Therefore, the County recognized that
Petitioners argued the issue in their Opening Brief; the
County did not object to Petitioners’ presentation of the
argument; it does not allege prejudice now; and the Ninth
Circuit was exhaustively briefed on the argument by both
sides. Therefore, the rationale behind the waiver doctrine
does not apply here.
Additionally, even if the issue had not been argued, this
Court could still consider it as it is integral to resolution of
the ultimate question of whether Respondent satisfied its
constitutional obligation to provide counsel at all critical
stages of the proceedings. Kolstad v. American Dental
Ass’n, 527 U.S. 526, 540 (1999).
(2) Heck does not Bar this Action.
In Heck v. Humphrey, 512 U.S. 477, 487, fn. 7 (1994),
this Court stated that 42 U.S.C. § 1983 actions alleging
constitutional violations amounting to harmless error are
not barred because the violations would not necessarily
invalidate the conviction. This Court stated in Hurst v.
Florida, 577 U.S. 92, 102 (2016) that, “This Court normally
leaves it to state courts to consider whether an error
1. The district court’s erroneous interpretation of Heck was
also explicitly argued on page 75 of the opening brief.

4
is harmless, and we see no reason to depart from that
pattern here.” California has determined that,
Although the arraignment is a critical stage
of the proceeding entitling the defendant to
an attorney, the absence of an attorney at
the arraignment is not such a grievous error
that it compels a reversal without a showing
of prejudice. In Coleman v. Alabama (1970)
399 U.S. 1, 10–11, 90 S.Ct. 1999, 2003–2004, 26
L.Ed.2d 387, the majority of our highest court
determined that a complete denial of counsel
at a preliminary hearing is not reversible
per se, but should be evaluated under the
Chapman “harmless beyond a reasonable
doubt” standard. People v. Cox, 193 Cal.App.3d
1437, 1440 (1987).
Therefore, the Heck doctrine does not apply to Petitioners’
claim that they were denied counsel at the critical stage of
arraignment. Consequently, Respondent’s chief argument
for opposing a writ of certiorari is a fallacy.
(3) Respondent Raises Another Compelling Reason for
Granting Certiorari.
In the context of its Heck argument, Respondent
raises another compelling reason for granting certiorari as
there is a conflict among this Court’s opinions concerning
the question of whether the absence of counsel at a critical
stage of the proceedings necessarily requires per se
reversal of a criminal conviction. The district court thought
so, stating that, “Assuming for the sake of argument that
Petitioners are correct that their first appearances were

5
critical stages based on their rights to enter pleas, then
Hamilton, White, and Cronic all indicate that failure to
provide counsel at that appearance would be structural
error requiring per se reversal.” Pet. App. C 132a.
This interpretation of Hamilton v. Alabama, 368 U.S.
352 (1961) (an Alabama-specific capital case, involving
denial of counsel at arraignment), White v. Maryland, 373
U.S. 59 (1963) (a Maryland-specific capital case, involving
denial of counsel at preliminary hearing), and United
States v. Cronic, 466 U.S. 648, 659 (1984), which states that
denial of counsel at a critical stage of trial requires per se
reversal, runs afoul of this Court’s analysis of harmless
error in the Sixth Amendment context as expressed
in United States v. Morrison, 449 U.S. 361, 365 (1981),
where it stated that, “[C]ertain violations of the right
to counsel may be disregarded as harmless error,” and
Coleman v. Alabama, 399 U.S. 1 (1970), which found that
counsel’s absence at the critical stage of the preliminary
hearing was harmless error. 2 Consequently, Respondent
2. See also Ayala v. Wong, 756 F.3d 656, 673 (9th Cir. 2014,
overruled on separate grounds in Davis v. Ayala, 135 S.Ct. 2187
(2015)); McNeal v. Adams, 623 F.3d 1283, 1289 (9th Cir. 2010)
(Berzon, J., concurring) (“I believe the majority confuses the
“critical stage” standard applicable to United States v. Cronic, 466
U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984) with the separate
“critical stage” standard applicable to all claims under the Sixth
Amendment.”); U.S. v. Owen, 407 F.3d 222, 227 (4th Cir. 2005)
(“Our conclusion that Owen’s arraignment without counsel is
subject to harmless-error analysis is abundantly supported by
Supreme Court cases applying harmless-error analysis to the
denial of the Sixth Amendment right to counsel at various “critical
stages” of criminal process”); U.S. v. Roy, 855 F.3d 1133, 1144
(11th Cir. 2017) (discussion of harmless error under the Sixth
Amendment).

6
has identified a split in Supreme Court authority that only
this Court can resolve. Indeed, on page 7 of Respondent’s
earlier Petition for a Writ of Certiorari, it urged this Court
to grant certiorari on the basis that the Sixth Amendment
right to counsel cannot be violated in the absence of a
showing of actual prejudice.
(4) Collateral Estoppel Was Not Addressed Below.
The district court did not address Respondent’s
collateral estoppel argument. App. B at 92a. Given that
this is a court of review and not first view, this is not an
appropriate argument here. Cutter v. Wilkinson, 544 U.S.
709, 719 (2005).
(5) Due Process and Equal Protection Violations
Occur at Arraignment if Counsel is Not Present.
A.

Due Process was Violated.

Denial of counsel at arraignment is the most important
and pervasive criminal procedure issue litigated in the
country today, consuming thousands of hours of judicial
time in federal and state courts. As expressed in the
Petition for a Writ of Certiorari, the nationwide litigation
focuses on denial of counsel under the Sixth Amendment
and Due Process and Equal Protection Clauses of the
Fourteenth Amendment. In each of these cases there is
unavoidable overlap with state procedures. This case is
not an exception. However, as this Court stated in U.S.
v. Cronic 466 U.S. 648, 654 (1984), “Of all the rights
that an accused person has, the right to be represented
by counsel is by far the most pervasive for it affects his
ability to assert any other rights he may have.”

7
Respondent seeks to blind the Court to this reality by
suggesting that the Court would be mired in California
criminal procedure and that any remedy would have to
be narrowly tailored to California. This misses the point
because navigating all criminal procedure requires the
guiding hand of counsel. Denial of counsel may result in
denial of the right to be heard in a meaningful way and
at a meaningful time regarding bail in Ohio, or it may
result in denial of the ability to assert the right to enter
a plea, which triggers mandatory statutory speedy trial
rights protecting liberty interests in California. In the
unjustified absence of court-appointed counsel, however,
the right to be heard concerning all rights is silenced, and
that is a due process violation regardless of the state or
the right at issue.
B. Equal Protection was Violated.
Respondent does not dispute that the poor were denied
fundamental rights that the affluent enjoyed, or the fact
that it caused the discrepancy in treatment. Rather, it
asserts that since the public defender represents poor
people only, there can be no equal protection violation in
spite of the fact that Respondent’s policy of withholding
representation for a period of one to two weeks denied
poor detainees statutory speedy trial rights, the right
to argue for release on recognizance or lower bail, and
the right to apply for pretrial diversion or habeas corpus
when the affluent were permitted to assert these rights
immediately. Opp. 33. This flies in the face of Lane v.
Brown, 372 U.S. 477 (1963), which found that equal
protection was violated when the public defender, who
represented poor people only, determined whether or not
an indigent appellant received a transcript on appeal. It

8
also flies in the face of Douglas v. California, 372 U.S. 353
(1963) which holds that counsel must be appointed for a
defendant’s first appeal as of right but more broadly holds
that counsel is required whenever a lay person’s liberty
may be imperiled by his lack of understanding of arcane
matters of criminal procedure.
As to Respondent’s second point, being automatically
required to spend one to two weeks in jail before being
able to assert any rights, when the affluent are permitted
to immediately assert all of their rights, does not satisfy
Ross v. Moffitt, 417 U.S. 600 (1974).
(6) This Case is not Moot.
Respondent concedes that this case is not moot but
argues that it is “effectively moot” because Respondent
provided additional funding to the public defender’s office
to staff arraignment courts after this lawsuit was filed.
Opp. 1. Respondent does not contest standing. Rather,
it states that this case is unworthy of declaratory and
injunctive relief because Respondent now provides
representation to most indigent defendants in most
arraignment courts. Respondent, however, failed to
provide counsel to tens of thousands of indigent detainees
for 28 years pursuant to a written policy; it insists today
that its prior practice was constitutionally acceptable;
it currently fails to provide representation to all out of
custody defendants in some misdemeanor arraignment
courts; and it currently fails to provide counsel, through
the alternative public defender or conflicts panel, to all
indigent detainees at the first appearance when the public
defender has an obvious conflict of interest. Therefore,
declaratory relief, injunctive relief, and nominal damages

9
are appropriate. Already, LLC v. Nike, Inc., 568 U.S. 85,
91 (2013).
(7) There is a Sufficient Record to Determine that
Respondent’s Policy was Constitutionally Invalid
on its Face.
The question of whether there is a sufficient record
to determine something, i.e., proof, is entirely dependent
upon the standard of review. In this case, the standard
of review Petitioners followed was the one set forth in
Judge Fletcher’s Ninth Circuit opinion. The district court
later said that it would rule based upon “the totality of
the circumstances” but could not articulate what those
circumstances were. Doc. No. 117 at pp. 24-26. Given
this mystery, Petitioners were left to guess what factors
the district court would consider, hypothesizing that
it intended to engage in some type of analysis akin to
the balancing test in Mathews v. Eldridge, 424 U.S. 319
(1976) where the “grave potential for prejudice” would
be balanced against the reasons for delaying provision
of counsel. Petitioners developed the record accordingly,
proving that the delay posed the grave potential for
prejudice and was totally unjustified. Respondent provided
nothing in response other than its own failure to fund
public defender services and subterfuges concerning the
facts of the named Petitioners’ criminal cases that had
nothing to do with determining the length of the delay in
their cases. Therefore, Petitioner’s should have prevailed
at the summary judgment stage.
Yet in its opinion on summary judgment, the district
court assigned Petitioners an impossible burden for the
first time, requiring them to prove the circumstances of

10
indigent defense delivery systems nationwide. Pet. App.
B. 78a, 79-80a, fn. 16. Petitioners might have been able
to do so had they known of this requirement in advance.
Given that the standard was announced after the matter
had been submitted, however, the problem was not with
the sufficiency of the record but with the sufficiency of
the standard and the manner in which it was announced.
In this regard, the district court’s failure to articulate a
standard, which left Petitioners to guess at the record
they were required to produce, does not preclude this
Court from promulgating the correct standard by which
municipalities and criminal defendants can conduct their
affairs in the future.
(8) The Absence of Judicial Defendants and a Certified
Class Clarifies the Issues.
The County argues that “[A]ny adjudication of this
issue based on this case would necessarily be narrow”
because there is an absence of judicial defendants, and
an absence of a certified class. 3 Opp. at 21. This argument
overlooks this Court’s broad holdings in Gideon v.
Wainwright, 372 U.S. 335 (1963) and United States v.
Wade, 388 U.S. 218 (1967), which involved neither judicial
defendants nor a certified class. Respondent seems to imply
that Petitioners are inadequate for this Court to assess
whether Respondent’s policy of delaying representation to
all indigent detainees was unconstitutional, but it does not
explain why these Petitioners are inadequate, what type of
detainee would be better, and why this case would benefit
from the complexity attendant to judicial defendants and
3. The district court ordered the parties to litigate summary
judgment motions in advance of class certification. Doc. 117 at 18.

11
class litigation. Indeed, the absence of judicial immunity
issues and class considerations streamlines the process,
making this case an ideal vehicle for directly addressing
the essential issues.
(9) The Procedural Issues in this Case are Anything
but Mundane.
Respondent asserts that the “mundane procedural
questions” in this case do not warrant this Court’s
inter vention. Opp. 7. The announcement of new
constitutional standards answering a question left
open by this Court, however, is anything but mundane.
Additionally, the idea that a district court can make up
the constitutional standards as it goes along, announcing
them after the matter has been submitted, is not mundane.
Indeed, it is one definition of tyranny. See Wisconsin v.
Constantineau, 400 U.S. 433, 436, (1971).
(10) The Issues in this Case are not of “Relative
Unimportance.”
Respondent argues that the question of when counsel
must be appointed is of “relative unimportance” due
to an absence of circuit courts directly answering the
question. Opp. 28. As described in the Petition for a Writ
of Certiorari, however, litigation is raging throughout
this country concerning this question. Respondent’s Brief
in Opposition referred to this as “a multitude of cases.”
Opp. 23. Some of the cases address the question of what
constitutes a critical stage; others ask when counsel must
be appointed under the Sixth Amendment; others ask
whether the absence of counsel at the first appearance
violates due process or equal protection. Regardless of

12
which doctrine is asserted, each of these cases converge on
the fundamental question of how much delay in appointing
counsel to indigent detainees is reasonable? Moreover, the
district court in this case specifically complained about an
absence of guidance on this issue. Pet. App. C at 138a. In
short, this issue has crossed the threshold for requiring
this Court’s intervention.
CONCLUSION
The Court should grant the Petition.
Respectfully submitted,
Christopher A lan Martin
Counsel of Record
Martin Law Offices
607 Hearst Avenue
Berkeley, CA 94610
(510) 206-2142
m305@icloud.com
Attorney for Petitioners

January 15, 2021

